HHS/OIG, Audit -"Review of the Commonwealth of Virginia's Medicaid Drug Rebate Program,"(A-03-03-00208)
Department
of Health and Human Services
Office of Inspector General -- AUDIT
"Review of the Commonwealth of Virginia's Medicaid Drug Rebate Program," (A-03-03-00208)
July 29, 2003
Complete
Text of Report is available in PDF format (201 KB). Copies can also be obtained by contacting the Office of Public
Affairs at 202-619-1343.
EXECUTIVE SUMMARY:
The objective of our review was to determine whether the Commonwealth of Virginias Department of Medical Assistance Services
(DMAS) established adequate accountability and internal controls over the Medicaid drug rebate program.  We found
that DMAS, along with its fiscal agent First Health Services Corporation (FHSC), had established adequate accountability
and internal controls over the Medicaid drug rebate program.  However, we found that FHSC had not reconciled payments
to the National Drug Codes level.